July 22, 2010

ROSS PHILO
EXECUTIVE VICE PRESIDENT AND CHIEF INFORMATION OFFICER

DEBORAH J. JUDY
DIRECTOR, INFORMATION TECHNOLOGY OPERATIONS

CHARLES L. MCGANN, JR.
MANAGER, CORPORATE INFORMATION SECURITY

SUBJECT: Audit Report – UNIX Operating System Master Controls
        (Report Number IS-AR-10-010)

This report presents the results of our audit of UNIX® operating system master controls
(Project Number 10RG005IT000). We conducted this audit in support of the Postal
Service’s regulatory requirement to comply with section 404, Management’s
Assessment of Internal Control, of the Sarbanes-Oxley Act of 2002 (SOX). Our
objective was to determine whether the Postal Service’s UNIX operating system
environment, hosting applications supporting the financial statements, complies with
Information Technology (IT) SOX master controls.1 This audit addresses operational
risk. See Appendix A for additional details about this audit.

In December 2006, Congress passed the Postal Accountability and Enhancement Act
(the Postal Act) that included significant changes to the way the Postal Service does
business. The Postal Act requires the Postal Service to comply with SOX beginning with
the fiscal year (FY) 2010 annual report.

Conclusion

The UNIX operating system environment, hosting applications supporting the financial
statements, generally complies with IT SOX master controls. See Appendix C for a
summary of compliance with the      UNIX master controls that we tested. Specifically,
we tested    UNIX servers and      UNIX workstations and noted the following:

          All   servers complied with the administrative password management,
           segregation of duties, and password encryption master controls.

1
    Controls designed to mitigate the risk associated with the infrastructure that supports SOX in-scope applications.
UNIX Operating System Master Controls                                                                       IS-AR-10-010



        One server did not comply with

        Two servers did not comply with                                                                    .
        Three servers did not comply with

        Six servers did not comply with
                                      .
        One workstation did not comply with

While there was general compliance with the SOX master controls, management can
improve preventive and detective security controls and preserve the Postal Service
brand by:

        Limiting developer permissions within the production environment.
        Establishing approved baseline security configuration standards.
        Properly configuring account and password settings.
        Adhering to patch management procedures.
        Monitoring modifications to log configuration files and key security events.

Based on our audit results, management began remediating configuration-related
vulnerabilities during the audit.

Developer Access to Production Environment

We identified    developers with privileged access to files across    production
        2
servers supporting the
                               . File permissions provided the developers with the
capability to modify or delete    iles on     servers. IT SOX controls4 require
developer’s access to the production environment be limited to read-only.5

According to management, these servers function to stage data for transfer to the
application and developers require access to the servers to review log files when
failures occur in the file transfer process. Management submitted a risk mitigation plan6
(RMP) on October 1, 2009, proposing compensating controls to mitigate the risk of
unauthorized deletion of or modification to files by developers.

The SOX and Process Improvement office, the SOX Program Management Office, and
the chief information officer are currently reviewing the plan. If they approve the plan,

2
  These servers were not included in our sample. However because we identified this issue during our fieldwork, we
are including the issue in this report.
3
  Permissions in the UNIX environment determine whether a user can read from, write to, or execute a file.
4
  Master Control 07.UNIX.SOD, version 7, dated December 23, 2009.
5
  The read-only permission allows a user to read a file but restricts the user from modifying or deleting it.
6
  A risk mitigation plan identifies mitigating controls that may act as a substitute for a standard IT master control and
includes any residual risk.




                                                            2
UNIX Operating System Master Controls                                                                 IS-AR-10-010



the OIG must assess the compensating controls to determine whether they
appropriately mitigate the risk.

We recommend the director, Information Technology Operations, direct the manager,
Information Technology Computing Services, to:

1. Review and update system permissions to ensure developers possess read-only
   privileges to files in the production environment.

Configuration Baseline

Management has not formally approved UNIX security configuration standards. This is
because Information Security Services recently created the International Business
Machine Advanced Interactive eXecutive (IBM® AIX®) standards. Information Systems
Security is currently working with management to revise and gain approval of the draft
AIX standards and existing UNIX standards. Postal Service policy7 requires
management to implement hardening standards specific to each platform. As a result,
we could not assess the UNIX environment against the configuration baseline control,
as UNIX baseline security configuration standards have not been fully established and
approved.8 The OIG will test this control once management approves all UNIX security
configuration standards.

We recommend the manager, Corporate Information Security, coordinate with the
director, Information Technology Operations, to:

2. Establish and approve baseline security configuration standards for all UNIX
   operating system types.

Account and Password Management

Account and password settings were not consistent with IT master control requirements




         administrators did not always review and update account and password
configurations. Improper management of accounts and passwords increases the risk of
unauthorized users gaining access to these systems. See Appendix B for our detailed
analysis of this topic.



7
  Handbook AS-805, Information Security, dated November 2009, Section 10-2.3.1, Hardening Servers.
8
 IT Master Control 07.UNIX.Config_Baseline, version 5, dated February 5, 2010, requires management to establish
standard operating system security configurations and confirm, semiannually, that production configurations remain
consistent with approved standards.




                                                         3
UNIX Operating System Master Controls                                                               IS-AR-10-010



We recommend the director, Information Technology Operations, direct the manager,
Information Technology Computing Services, to:

3. Review and update UNIX operating system user account and password settings to
   comply with IT SOX requirements.

Patch Management

Administrators did not consistently adhere to patch management procedures.




                      IT SOX controls require administrators to apply recommended
patches to production servers. In addition, administrators should document and obtain
approval of all patch testing.11 Missing patches could allow a person or malware12 to
read, change or delete files accidentally or maliciously. In addition, undocumented
testing could introduce patches in the environment that may cause system resources to
become unavailable to users.

We recommend the director, Information Technology Operations, direct the manager,
Information Technology Computing Services, to:

4. Install approved patches and document patch testing.

Log Management

Administrators did not configure the Server Automation Software13 management utility
to monitor modifications to log configuration files




                                                                    administrators could
not consistently review key security events including log-on failures, elevation of
privileges by unapproved personnel, modification of logging settings or the modification


9



   IT Master Control 07.UNIX.Patch_Mgmt, version 6, dated January 15, 2010.
11
   IT Master Control 07.UNIX.Testing_Doc, version 5, dated January 8, 2010.
12
   Software programs designed to damage or perform unwanted actions on a computer system.
13
   A server management utility that automates operating system provisioning and patch management.
14
   A log management utility that enables organizations to collect, store, and analyze log data.




                                                       4
UNIX Operating System Master Controls                                                          IS-AR-10-010



of log ownership and permissions on these servers as required by IT SOX controls and
Postal Service policy.15

We recommend the director, Information Technology Operations, direct the manager,
Information Technology Computing Services, to:

5. Configure the log management utility to monitor modifications to log configuration
   files.

6. Configure servers to send log events to a centralized log repository.

Mainframe Servers

Administrators did not correctly configure
             Specifically,                                                        In
addition, they did not consistently comply with the patch management process or follow
log management procedures to include monitoring of key security events.

                                  Administrators should properly configure and monitor
servers to mitigate the risk of unauthorized access or undetected malicious activity
occurring on the system. See Appendix B for our detailed analysis of this topic.

We recommend the director, Information Technology Operations, direct the manager,
Information Technology Computing Services, to:

7. Review and update Linux operating systems account and password settings to
   comply with IT SOX requirements.

8. Provide administrators with training addressing configuration, patch, and log
   management procedures supporting IT SOX requirements.

Other Matters – Shared User Account

We identified an undocumented, shared local user account on each
        we reviewed. Administrators use the account to access the operating systems
when directory services17 are unavailable. They track use of this account with the
application. However, management did not obtain formal approval for this account as
required by policy.18 When notified, management took corrective action to register the
account in eAccess. As a result, we are not making a recommendation to address this
issue.
15
   IT Master Control 07.UNIX.Sec_Log_Mntr_Config, version 4, dated March 16, 2010 and Handbook AS-805,
Section 9-11.5 Audit Log Reviews.
16
   IT Master Controls 07.UNIX.Sec_Log_Mntr_Config, 07.UNIX.Revew_Sec_Logs, version 7, dated May 3, 2010,
07.UNIX.Patch_Mgmt, and 07.UNIX.Testing_Doc.
17
   Directory Services provides for central authentication and authorization.
18
   Handbook AS-805, Section 9-4.2.4, Shared Accounts.




                                                     5
UNIX Operating System Master Controls                                                                      IS-AR-10-010



Management’s Comments

Management agreed with our recommendations. In response to recommendation 1,
management completed action on May 30, 2010 for all systems not included in the
RMP. Additional UNIX controls were documented in the RMP on May 30, 2010. The
appropriate sponsors will pursue approval of the RMP and management will revoke
developer access if the plan does not receive approval. The target completion date is
September 30, 2010.

In response to recommendation 2, management has approved the IBM-AIX security
configuration standards and is seeking final approval of the Solaris and Linux standards.
The target completion date is July 31, 2010.

To address recommendation 3, management will review and update configuration
settings during their semiannual configuration baseline review. In response to
recommendation 4, management completed and documented their patch testing and
will install approved patches during their current patch cycle. The target completion date
for recommendations 3 and 4 is August 31, 2010.

Management addressed recommendation 5 by converting to Critical System
Protection19 monitoring as of June 25, 2010. Management requested closure of this
recommendation upon issuance of the final report.

Management will address recommendations 6, 7, and 8 by configuring servers to send
log events to a centralized server, updating Linux operating system account and
password settings, and providing administrators with appropriate training. The target
completion dates are July 31, 2010 for recommendation 6; August 31, 2010 for
recommendation 7; and September 30, 2010 for recommendation 8. See Appendix D
for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




19
     Management refers to Critical Site Protector but the product name is actually Critical System Protection.




                                                             6
UNIX Operating System Master Controls                                       IS-AR-10-010



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, director,
Information Technology, or me at 703-248-2100.



   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems


cc: Harold E. Stark
    Susan M. LaChance
    Joseph J. Gabris
    Corporate Audit Response Management




                                           7
UNIX Operating System Master Controls                                                                IS-AR-10-010



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The UNIX server environment includes the



                                   and the IT Corporate Help Desk Organization
sections of the Information Technology Computing Services group manage these
servers.

The Postal Service SOX and Process Improvement office established the IT SOX
Compliance Management Office (CMO) to manage the annual documentation, testing,
remediation, reporting, and certification requirements to meet and maintain IT SOX
compliance. The IT SOX CMO is responsible for the development and implementation
of internal IT SOX master controls, both general computer and application specific
controls. The IT SOX CMO identified        master controls applicable to the UNIX
operating system environment.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service UNIX operating system
environment, hosting applications supporting the financial statements, complies with IT
SOX master controls. We limited our scope to controls applicable to the UNIX operating
system environment.

As of March 2010, there were          UNIX servers in the production environment,     of
                                                        20
which support                SOX in-scope applications. To achieve our objective, we
judgmentally selected a sample of      servers supporting             SOX in-scope
applications and reviewed their configuration files. We also judgmentally sampled
       applicable UNIX workstations and reviewed their screensaver inactivity timeout
settings. In addition, we interviewed administrators, observed key processes and
procedures, and reviewed applicable Postal Service policies.

We conducted this performance audit from November 2009 through July 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient and appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on June 21, 2010, and included their comments
20
  SOX in-scope applications include financial applications supporting in-scope business processes and IT
applications that have a pervasive impact on the IT control environment.




                                                         8
     UNIX Operating System Master Controls                                         IS-AR-10-010



     where appropriate. We used manual and automated techniques to analyze the
     configuration data. Based on the results of these tests and assessments, we concluded
     the data were sufficient and reliable to use in meeting the objective.

     PRIOR AUDIT COVERAGE

                                              Final
                                   Report    Report
      Report Title                 Number     Date Report                    Results
UNIX Access Controls at                      8/10/2009




Access Controls at the         I             8/15/2008   We recommended management develop
                                                         an automated procedure to identify and
                                                         remove from


                                                                  Management agreed with the
Centers for Fiscal Year                                  finding and recommendation and took
2008                                                     action to address the issue in May 2010.




                                                9
UNIX Operating System Master Controls                      IS-AR-10-010




                                         Final
                            Report      Report
Report Title                Number       Date Report   Results
                                        6/3/2008




                                          10
UNIX Operating System Master Controls                                                             IS-AR-10-010



                               APPENDIX B: DETAILED ANALYSIS


Account and Password Management
Administrators did not properly configure account and password settings


     



     

     




                                              did not configure their workstation to lock after 30
minutes of inactivity.
The IT SOX controls21 require:
        Accounts to lock after six unsuccessful log-on attempts.
        Operating system account passwords to change from their default value.
        UNIX workstations to display a password-protected screensaver after a
         maximum of 30 minutes of inactivity.
        Passwords changed at least every 45 days for administrative accounts22 or at
         least every 90 days for non-administrative accounts.
Management took corrective actions when we brought these issues to their attention.
Mainframe Servers



     
     
                                                                                           .
     
     
                               .
     


21
   Master Controls 07.UNIX.Account_Suspend, version 11, dated December 23, 2009,
07.UNIX.Default_Acct_PW_Chg, version 8, dated February 22, 2010, 07.UNIX.Inactivity_Timeout, version 9, dated
December 23, 2009; and 07.UNIX.PW_Parm_Config, version 4, dated December 23, 2009.
22
   Root is the administrative account on UNIX, Linux, and AIX operating systems.
23
   Master Controls 07.UNIX.Account_Suspend, and 07.UNIX.PW_Parm_Config.




                                                      11
UNIX Operating System Master Controls                                           IS-AR-10-010




The administrator took action to correct the
               when we brought these issues to the administrator’s attention.




                                          12
UNIX Operating System Master Controls                                                               IS-AR-10-010



                       APPENDIX C: MASTER CONTROL COMPLIANCE
The table below shows the level of compliance with the 12 UNIX master controls that
were tested.

                                 UNIX Master Controls Compliance
                                                       Sample Number Number Percent In
           UNIX Master Control                          Size  Tested Passed Compliance
 Configuration Baseline 24
 Administrative Password Management
 Segregation of Duties
 Password Encryption
 Default Account Password Change
 Inactivity Timeout25
 Patch Management
 Testing Documentation
 Account Suspension
 Password Parameter Configuration
 Review Security Log
 Security Log Monitor Configuration




24
   We did not test the configuration baseline master control because management had not approved configuration
baseline standards for all UNIX operating systems.
25
   We sampled UNIX workstations to test this master control.




                                                       13
UNIX Operating System Master Controls                     IS-AR-10-010



                      APPENDIX D: MANAGEMENT’S COMMENTS




                                        14
UNIX Operating System Master Controls        IS-AR-10-010




                                        15
UNIX Operating System Master Controls        IS-AR-10-010




                                        16
